HHS/OIG, Audit - "Review of Medicaid Disproportionate Share Hospital
Payments to University Behavioral Healthcare Center, University of Medicine and
Dentistry of New Jersey:  July 1, 1995, Through June 30, 2001,"
(A-02-04-01024)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
Medicaid Disproportionate Share Hospital Payments to University Behavioral
Healthcare Center, University of Medicine and Dentistry of New Jersey:  July 1,
1995, Through June 30, 2001," (A-02-04-01024)
July 10, 2007
Complete
Text of Report is available in PDF format (488 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether
Medicaid disproportionate share hospital (DSH) payments to University Behavioral
Healthcare Center (UBHC) for State fiscal years 1996 through 2001 complied with
the hospital-specific limits imposed by section 1923(g) of the Social Security
Act (the Act) and the approved State plan.
DSH payments to UBHC exceeded the hospital-specific
limits imposed by section 1923(g) of the Act and the approved State plan by
$20,075,738 ($10,037,869 Federal share).  Further, we were unable to determine
the reasonableness of $9,881,400 ($4,940,700 Federal share) of costs included in
UBHCs hospital-specific DSH limits because the contractor included an
undetermined amount of costs for patients with private insurance coverage.  New
Jersey officials told us that they had relied on the contractor to prepare the
DSH claims and that, contrary to Federal requirements, they had not ensured the
veracity of those claims before submitting them for Federal reimbursement.
We recommended that New Jersey (1) refund $10,037,869 to
the Federal Government, (2) work with the Centers for Medicare and Medicaid
Services (CMS) to resolve $4,940,700 in set-aside costs, (3) adhere to Federal
law and State plan requirements when submitting DSH claims subsequent to June
2001 for Federal reimbursement, and (4) review all work performed by consultants
to ensure the veracity of future Medicaid claims to the Federal Government.  New
Jersey officials generally agreed with the findings and recommendations.